CREDIT LINE ACCOUNT AND
PERSONAL LOAN APPLICATION

6401 South Bell Street
P. O. Box 7407
Amarillo, Texas 79114
Phone: 806.353.9999
Fax: 806.353.2533

Applicant Information

ACCOUNT NUMBER – APPLICANT

Unmarried (Includes Single, Divorced and Widowed)

Separated

2. Married applicants can apply for individual credit. Indicate if You would like:
Individual Credit

Joint Credit with Your Spouse/Co-Applicant
Payroll Deduction

3. Method of Payment:

Weekly

4. Frequency of Payment:

Automatic Share Transfer
Bi-Weekly

DATE

Spouse/Co-Applicant Information

PRINT OR TYPE ALL INFORMATION

1. If You live in a community property state, are You:
Married

ACCOUNT NUMBER – CO-APPLICANT

Cash Payment

Semi-Monthly

Monthly

5. Complete Spouse/Co-Applicant Information only if:
a. This is for joint credit with Your Spouse or other Co-Applicant;
b. Your Spouse will use Your Account;
c. You are relying on Your Spouse's income as a source of repayment for the credit requested; or
d. You live in a community property state: Arizona, California, Idaho, Louisiana, Nevada,
New Mexico, Texas, Washington, Wisconsin (or Puerto Rico).
6. Definitions:
Whenever used in this application, the words “You” and “Your” refer to the Applicant(s)
or Spouse/Co-Applicant and the words “We,” “Us,” and “Our” refer to the Lender.

Credit Applied For:
Type of credit _______________________________

Amount Requested $_______________________ Refinanced Amount $ ____________________ Total Request $ __________________

Purpose ___________________________________________________________________ Collateral Offered________________________________________ Value: $ __________________

There are costs associated with the use of any Credit Card issued to You by Us. You may request specific information
about these costs by contacting Us by telephone at (806) 353-9999 (callers from outside the 806 area code may call
collect) or by writing Us at P.O. Box 7407, Amarillo, Texas 79114.
APPLICANT OR CO-SIGNER
SPOUSE/CO-APPLICANT
FIRST NAME

INITIAL

LAST NAME

FIRST NAME

SOCIAL SECURITY NUMBER

INITIAL

BIRTHDATE

SOCIAL SECURITY NUMBER

LAST NAME

BIRTHDATE

CURRENT STREET ADDRESS

APT. NO.

YEARS THERE

CURRENT STREET ADDRESS

APT. NO.

YEARS THERE

CITY

STATE

ZIP

CITY

STATE

ZIP

MOTHER’S MAIDEN NAME

EMAIL ADDRESS

MOTHER’S MAIDEN NAME

FORMER ADDRESS (COMPLETE IF PREVIOUS ADDRESS IS LESS THAN 3 YEARS)

DO YOU:
OWN

HOME TELEPHONE
RENT

YEARS THERE

NO. OF DEP. AGES OF DEPENDENTS

EMPLOYMENT DATE

CURRENT EMPLOYER (INCLUDE EMPLOYEE I.D. IF APPLICABLE)

EMPLOYMENT DATE

ADDRESS/CITY/STATE/ZIP

POSITION

FORMER EMPLOYER

OTHER INCOME

NO. OF DEP. AGES OF DEPENDENTS

PAY BOARD

NAME, ADDRESS AND TELEPHONE OF NEAREST REFERENCE NOT LIVING WITH YOU

ADDRESS/CITY/STATE/ZIP

WORK TELEPHONE

HOME TELEPHONE
RENT

YEARS THERE

If self-employed, attach financial statement or income tax returns.

CURRENT EMPLOYER (INCLUDE EMPLOYEE I.D. IF APPLICABLE)

MO. GROSS SALARY

POSITION

WORK TELEPHONE

YEARS THERE

POSITION

FORMER EMPLOYER

MO. GROSS SALARY

POSITION

YEARS THERE

Alimony, child support, or separate maintenance income need not be revealed if You do not choose to have it considered. (Proof Required)

TYPE OF OTHER INCOME

MONTHLY AMOUNT

TYPE OF OTHER INCOME

NAME AND ADDRESS OF PAYER

ASSETS AND DEPOSITS

MONTHLY AMOUNT

NAME AND ADDRESS OF PAYER

Attach a separate sheet if necessary.

BANK (OR OTHER) NAME & ADDRESS

ACCOUNT NO.

INTEREST
RATE

APPROX. BAL.

C
H
E
C
K
I
S
A
V
I
N

DO YOU:
OWN

EMPLOYMENT AND INCOME

TYPE

FORMER ADDRESS (COMPLETE IF PREVIOUS ADDRESS IS LESS THAN 3 YEARS)

PAY BOARD

NAME, ADDRESS AND TELEPHONE OF NEAREST REFERENCE NOT LIVING WITH YOU

EMAIL ADDRESS

TYPE

BANK (OR OTHER) NAME & ADDRESS

ACCOUNT NO.

INTEREST
RATE

APPROX. BAL.

C
H
E
C
K
S
A
V
I
N
G

SEE ATTACHED

O
T
H
E
R

O
T
H
E
R

CAR 1 - YR. - MAKE - MODEL

VALUE

CAR 1 - YR. - MAKE - MODEL

VALUE

CAR 2 - YR. - MAKE - MODEL

VALUE

CAR 2 - YR. - MAKE - MODEL

VALUE

HOMEOWNERS: PLEASE INDICATE NAME(S) ON DEED

PURCHASE PRICE

APPROX. VALUE

Copyright Oak Tree Business Systems, Inc., 2012-2014. All Rights Reserved.

HOMEOWNERS: PLEASE INDICATE NAME(S) ON DEED

Page 1 of 2

PURCHASE PRICE

APPROX. VALUE

OTBS 015 ACCE (6/14)

CREDIT INFORMATION
PLEASE
CHECK
A

C

A=Applicant

Please list all open accounts with or without a balance. Attach separate sheet if necessary.
INTEREST
RATE

ACCOUNT
NUMBER

LENDER (OR OTHER ) NAME & ADDRESS
LIST ALL OBLIGATIONS, INCLUDING CREDIT UNION LOANS

C=Spouse/Co-Applicant

D=Debts to be paid off if loan is granted.
ORIGINAL
AMOUNT

MONTHLY
PAYMENT

BALANCE

D

SEE ATTACHED

A

Please answer the following questions.
If a yes answer is given, explain on attached sheet.

YES

C
NO

YES

TOTALS

NO

1. Have You filed a petition for bankruptcy in the last 14 years?

A

Please Check: A=Applicant/Co-Signer C=Co-Applicant

YES

NO

C
YES NO

6. Have You any Obligations not listed?

2. Have You ever had any auto, furniture or property repossessed?
3. Are you a co-maker or co-signer on any loan?

7. Do You have any past due bills?

For Whom ___________________ Amount $ ______________

8. Is any income You have listed likely to reduce in the next two years?
9. Indicate immigration status:

4. Have you ever had credit in any other name?
What name_______________________________________
5. Have You any suits pending, judgments filed, alimony or support
awards against You?

Applicant



U.S. Citizen



Permanent U.S. Resident



Other___________

Co-Applicant



U.S. Citizen



Permanent U.S. Resident



Other___________

OPTIONAL CREDIT INSURANCE
Credit Life and/or Credit Disability Insurance are not required to obtain credit and, for Credit Line Accounts, will be included only if requested immediately
below by the APPLICANT. The insurance rates for Credit Line Accounts are shown below. For Credit Line Accounts, the insurance charge is calculated each
month by multiplying the outstanding balance of the Account on the last day of that month by the rate shown. For Closed-End loans, the total insurance
premium will be calculated and disclosed to You separately.
Monthly Premium Rates per $1000 of Outstanding Balance for Credit Line Accounts - You must CHECK ONE OR MORE of the boxes below.

$ .057
Single Coverage - ________

CREDIT LIFE:

Yes

$ .086
Joint Coverage - ________

No

$ .130
CREDIT DISABILITY (Primary Borrower Only): Single Coverage - ________
Yes
No
Closed-End Loan Applicants - You must CHECK ONE OR MORE of the boxes below.
You are interested in Credit Disability Insurance - single coverage
You are interested in Credit Life Insurance - single coverage
You are not interested in Credit Insurance

Yes

No

joint coverage

NOTE: For Closed-End loans, an appropriate disclosure will be furnished if Your credit is approved. If this application is for a Credit Line Account and You are
applying for Credit Insurance, You authorize Us to add the required premiums to Your Account, charge a Finance Charge on the premiums at the rate which
applies to Your Account, and forward such premiums to the Insurance Company.
SIGNATURE OF APPLICANT _______________________________________________ SIGNATURE OF CO-APPLICANT ______________________________________________

SIGNATURES
You warrant the truth of the above information and You realize that it will be relied upon by Us in deciding whether or not to grant the credit applied for. You hereby authorize Us, Our employees and agents to
investigate and verify any information provided to Us by You. If this application is for any Feature Category contained in Our Credit Line Account or Credit Card Account Program, You agree and understand
that if approved, You are contractually liable according to the applicable terms of the Credit Line Account Agreement and Disclosure and/or Credit Card Account Agreement and Federal Disclosure
Statement. You will receive a copy of such Agreement and Disclosure no later than the time of Your first credit advance and You promise to pay all amounts charged to Your Account according to its terms. If
this is a joint application, You agree that such liability is joint and several. You authorize Us to accept Your facsimile signatures on this application and agree that Your facsimile signature will have the same
legal force and effect as Your original signature. You assume any risk that may be associated with permitting Us to accept Your facsimile signature. If You are issued a Credit Card, You grant and
consent to a lien on Your shares with Us (except IRA and Keogh accounts) and any dividends due or to become due to You from Us to the extent You owe on any unpaid Credit Card balance.
You hereby acknowledge Your intent to apply for joint credit ____________________________________________________
Applicant’s Initials

X

Co-Applicant’s Initials

X
Date

Signature of Applicant or Co-Signer

LOAN OFFICER
ADVANCE APPROVED

YES 

NO 

Date

Signature of Spouse/Co-Applicant

OTHER APPROVING SIGNATURES

REFERRED TO CC 

ADVANCE APPROVED

COUNTER OFFER WILL BE MADE. IF ACCEPTED, LOAN APPROVED

YES 

NO 

COUNTER OFFER WILL BE MADE. IF ACCEPTED, LOAN APPROVED

DESCRIBE COUNTER OFFER
SPECIFIC REASON(S) FOR REJECTION/APPROVAL
LOAN OFFICER SIGNATURE

DATE

CREDIT MANAGER OR OTHER

DATE

CREDIT LIMIT $

ECOA NOTICE AND REASON FOR REJECTION OR UNACCEPTED COUNTER-OFFER SENT OR DELIVERED ON

Copyright Oak Tree Business Systems, Inc., 2012-2014. All Rights Reserved.

Page 2 of 2

ADDITIONAL INFORMATION

(DATE) BY

OTBS 015 ACCE (6/14)

6401 South Bell Street
P. O. Box 7407
Amarillo, Texas 79114
Phone: 806.353.9999
Fax: 806.353.2533

CREDIT CARD ACCOUNT AGREEMENT
AND FEDERAL DISCLOSURE STATEMENT
THIS IS YOUR CREDIT CARD ACCOUNT AGREEMENT AND IT INCLUDES NECESSARY FEDERAL TRUTH-INLENDING DISCLOSURE STATEMENTS, VISA CLASSIC, VISA GOLD, VISA SECURED, MASTERCARD REGULAR,
MASTERCARD GOLD, MASTERCARD PLATINUM AND MASTERCARD SECURED AGREEMENTS, AND ANY
SPECIAL INSTRUCTIONS REGARDING THE USE OF VISA CLASSIC, VISA GOLD, VISA SECURED, MASTERCARD
REGULAR, MASTERCARD GOLD, MASTERCARD PLATINUM AND MASTERCARD SECURED CREDIT CARDS,
AND/OR ANY OTHER ACCOUNT ACCESS DEVICE. PLEASE BE CERTAIN TO READ THIS AGREEMENT
CAREFULLY AND NOTIFY US AT ONCE IF ANY PARTS ARE UNCLEAR.

Interest Rate and Interest Charges
Annual Percentage Rate (APR)
For Purchases

VISA Classic:
VISA Gold:

12.4
________%

12.4
________%

VISA Secured:

12.4
________%

MasterCard Regular:
APR For Balance Transfers

MasterCard Gold:

12.4
________%
OR 8.69
________%

MasterCard Platinum:7.49
MasterCard Secured:

12.4
________%

12.4
________%

12.4
VISA Classic: ________%

12.4
MasterCard Gold: ________%

12.4
VISA Gold: ________%

OR 8.69
MasterCard Platinum: 7.49
________%

12.4
VISA Secured: ________%

12.4
MasterCard Secured: ________%

12.4
MasterCard Regular: ________%
APR For Cash Advances

12.4
VISA Classic: ________%

12.4
MasterCard Gold: ________%

12.4
VISA Gold: ________%

OR 8.69
MasterCard Platinum:7.49
________%

12.4
VISA Secured: ________%

12.4
MasterCard Secured: ________%

12.4
MasterCard Regular: ________%
Paying Interest

We will not charge You interest on purchases if You pay Your entire balance owed each
month within 25 days of the statement closing date. We will begin charging interest on
cash advances and balance transfers on the transaction date.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a Credit
Card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Transaction Fees
•

Foreign Transaction

1.00% of each foreign currency transaction in U.S. Dollars.
0.80% of each U.S. Dollar transaction that occurs in a foreign country.

Penalty Fees
•
•

Late Payment
Returned Payment

Up to $25.00
Up to $15.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases).” See Your
Account Agreement for details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in Your Account
Agreement.

Copyright Oak Tree Business Systems, Inc., 2014. All Rights Reserved.

Page 1 of 4

OTBS 016CC ACCE (5/14)

DEFINITIONS. In this Agreement, the reference to "We," "Us," "Our" and "Credit Union" mean ACCESS COMMUNITY CREDIT UNION. The words "You" and "Your"
mean each person accepting this Agreement. If this is a joint Account, read singular pronouns in the plural. The words "Card" and "Credit Card" mean any VISA Classic,
VISA Gold, VISA Secured, MasterCard Regular, MasterCard Gold, MasterCard Platinum or MasterCard Secured Credit Card issued to You by Us and any duplicates or
renewals. The word "Account" means the VISA Classic, VISA Gold, VISA Secured, MasterCard Regular, MasterCard Gold, MasterCard Platinum or MasterCard Secured
Credit Card Account established for You under this Agreement. "Convenience Check" means the special Account access devices that We may provide for Your use from
time to time. If this is a joint Account, read singular pronouns in the plural.
PROMISE TO PAY. You understand that the following terms and conditions constitute Our Agreement with You. You may request advances on Your Account through a
variety of means which could include (but may not be limited to) telephonic requests, Convenience Checks, Credit Cards and the like. Regardless of the means by which
any advance is made, You promise to pay Us all amounts charged to Your Account by You or by any user who has access to Your Account, with actual, apparent or
implied authority for use of Your Account, including Finance Charges and other fees or charges described herein.

Daily
Periodic Rate

ANNUAL
PERCENTAGE RATE

VISA Classic

0.0003397
____________%

12.4
____________%

VISA Gold

0.0003397
____________%

12.4
____________%

VISA Secured

0.0003397
____________%

12.4
____________%

MasterCard Regular

0.0003397
____________%

12.4
____________%

MasterCard Gold

0.0003397
____________%

12.4
____________%

MasterCard Platinum

0.0002052 OR 0.0002380
____________%

7.49 OR 8.69
____________%

MasterCard Secured

0.0003397
____________%

12.4
____________%

Credit Card

USE OF YOUR CARD. You may use Your Card to buy goods and services in any
place that it is honored and to get cash advances at participating financial
institutions. You agree not to use Your Card for illegal transactions including, but
not limited to, advances made for the purpose of gambling and/or wagering where
such practices are in violation of applicable state and/or federal law.
SECURITY. Collateral (other than household goods or any dwelling) given as
security under any other loan You may have with Us will secure all amounts You
owe Us now and in the future if that status is reflected in the "Truth-in-Lending
Disclosure" in any particular Agreement evidencing such debt.
CONSENSUAL LIEN ON SHARES. You grant and consent to a lien on Your
shares with Us (except for IRA and Keogh accounts) and any dividends
due or to become due to You from Us to the extent You owe on any unpaid
Credit Card balance.
ACCOUNT RESTRICTIONS. In order to receive and maintain a VISA Secured or
MasterCard Secured Credit Card, You agree to give Us a specific pledge of shares
which will be equal to the sum total of Your Credit Limit, plus the greater of: (a)
$100.00; or (b) 10% of such Credit Limit. In the event that You default on Your
Account, We may apply these shares toward the repayment of any amount owed on
Your VISA Secured or MasterCard Secured Credit Card. You may cancel Your VISA
Secured or MasterCard Secured Credit Card at any time by paying any amounts
owed on such Account. To be certain that Your entire balance and all advances are
paid, any shares pledged may not be available to You for 30 days after You have
cancelled and any outstanding balance is paid in full.
LINE OF CREDIT LIMITS. You will be notified of each specific Credit Limit for
which You are approved. Unless You are in default, the Credit Limits established
for You will generally be self-replenishing as You make payments.
You will keep Your unpaid balance within Your Credit Limit set by Us, and You will
pay any amount over Your Credit Limit on Our demand whether or not We
authorize the advances which caused You to exceed Your Credit Limit. Even if
Your unpaid balance is less than Your Credit Limit, You will have no credit
available during any time that any aspect of Your Account is in default.
JOINT ACCOUNTS. Each Borrower will be responsible, jointly and severally, for
the repayment of any amounts owed. If any Account access device, such as a
Personal Identification Number (PIN) is requested and approved, You understand
that any such Account access device(s) will be mailed only to the primary
Borrower at the address that We have on file for You. We may refuse to follow
any instructions which run counter to this provision.
MINIMUM MONTHLY PAYMENTS (PAYMENT SCHEDULE). Though You need
only pay the Minimum Monthly Payments, You understand that You have the right
to repay at any time without penalty. You also understand that You will only be
charged periodic Finance Charges to the date You repay Your entire balance. You
may make larger payments without penalty. Any partial payment or prepayment
will not delay Your next scheduled payment. All payments to Us must be in lawful
Copyright Oak Tree Business Systems, Inc., 2014. All Rights Reserved.

money of the United States. We may apply each payment to whichever Feature
Category We wish. Except as required by law, We may apply payments at Our
discretion. Any unpaid portion of the Finance Charge will be paid by subsequent
payments and will not be added to Your principal balance. You understand that
any delay in the repayment of Your unpaid balance will increase Your periodic
Finance Charges and any acceleration in the repayment of Your unpaid balance
will decrease Your periodic Finance Charges.
Minimum Payments will be an amount equal to 3.00% of Your new unpaid
Account balance at the end of each billing cycle, subject to the lesser of $25.00 or
Your balance, plus any portion of the Minimum Payments shown on prior
statement(s) which remains unpaid, plus any amount that exceeds Your approved
Credit Limit.
You may, by separate agreement, authorize Us to charge Your payment directly to
Your share or share draft account.
FINANCE CHARGES. In the case of any transactions under Your Account, the
balances subject to the periodic Finance Charge are the average daily
transactions balances outstanding during the month (including new transactions).
To get the average daily balance, We take the beginning balance of Your Account
each day, add any new purchases, balance transfers, cash advances, insurance
premiums, debit adjustments or other charges and subtract any payments, credits
and unpaid Finance Charges. This gives Us the daily balance. Then, We add up
all the daily balances for the billing cycle and divide them by the number of days in
the billing cycle. The Finance Charge for a billing cycle is computed by multiplying
the average daily balance subject to a Finance Charge by the Daily Periodic Rate
times the number of days in the billing cycle.
You can avoid Finance Charges on purchases by paying the full amount of the
entire balance owed each month within 25 days of Your statement closing date.
Otherwise, the new balance of purchases, and subsequent purchases from the
date they are posted to Your Account, will be subject to a Finance Charge.
Balance transfers and cash advances are always subject to a Finance Charge
from the later of the date they are posted to Your Account or from the first day of
the billing cycle in which the transaction is posted to Your Account.
LATE CHARGE. If Your payment is 10 or more days late, You will be charged the
lesser of: (a) $15.00 for balances that are less than $100.00, $20.00 for balances
equal to or greater than $100.00 but less than $1,000.00, or $25.00 for balances
equal to or greater than $1,000.00; or (b) the amount of the minimum payment due.
VISA FOREIGN TRANSACTIONS. For transactions initiated in foreign
countries and foreign currencies, the exchange rate between the transaction
currency and the billing currency (U.S. dollars) will be: (a) a rate selected by VISA
from the range of rates available in wholesale currency markets for the applicable
central processing date, which rate may vary from the rate VISA itself receives; or
(b) the government-mandated rate in effect for the applicable central processing
date. For transactions that are initiated in a foreign currency, You will be charged
1.00% of the final settlement amount. For transactions occurring in foreign

Page 2 of 4

OTBS 016CC ACCE (5/14)

countries and initiated in U.S. Dollars, You will be charged 0.80% of the final
settlement amount.
MASTERCARD FOREIGN TRANSACTIONS. For transactions initiated in foreign
currencies, the exchange rate between the transaction currency and the billing
currency (U.S. dollars) will be: (a) a rate selected by MasterCard from the range of
rates available in wholesale currency markets for the applicable central
processing date, which rate may vary from the rate MasterCard itself receives; or
(b) the government-mandated rate in effect for the applicable central processing
date. In each instance You will be charged 8/10th of 1.00% calculated on the final
settlement amount for transactions that are initiated in foreign countries, and if
your transaction is also initiated in a foreign currency You will be charged an
additional 2/10th of 1.00% calculated on the final converted settlement amount.
OTHER FEES AND CHARGES. You will be charged the following fees associated
with the use of Your Card: (a) the lesser of $15.00 or the required minimum
payment amount for the returned payment for any check (or other negotiable
instrument used for payment) which is returned unpaid; and (b) $5.00 for each
replacement Card You request.
PERIODIC STATEMENTS. On a regular basis, You will receive a statement
showing all transactions on Your Account including amounts paid and borrowed
since Your last statement. We will mail You a statement each month in which
there is a debit or credit balance or when a Finance Charge is imposed. We need
not send You a statement if We feel Your Account is uncollectible or if We have
started collection proceedings against You because You defaulted. EACH
STATEMENT IS DEEMED TO BE A CORRECT STATEMENT OF ACCOUNT
UNLESS YOU ESTABLISH A BILLING ERROR PURSUANT TO THE FEDERAL
TRUTH-IN-LENDING ACT.
OUR RESPONSIBILITIES TO HONOR CONVENIENCE CHECKS. We are under
no obligation to honor Your Convenience Checks if: (1) by paying a Convenience
Check, You would exceed Your Credit Limit; (2) Your Cards or Convenience
Checks have been reported lost or stolen; (3) Your Account has been cancelled or
has expired. If a postdated Convenience Check is paid and, as a result, any other
Convenience Check is returned unpaid, We are not responsible for any resulting
loss or liability.
DEFAULT. You will be in default if: (a) You do not make any payment or perform
any obligation under this Agreement, or any other agreement that You may have
with Us; or (b) You should die, become involved in any insolvency, receivership or
custodial proceeding brought by or against You; or (c) You have made a false or
misleading statement in Your credit application and/or in Your representations to
Us while You owe money on Your Account; or (d) A judgment or tax lien should be
filed against You or any attachment or garnishment should be issued against any
of Your property or rights, specifically including anyone starting an action or
proceeding to seize any of Your funds on deposit with Us; and/or (e) We should,
in good faith, believe Your ability to repay Your indebtedness hereunder is or soon
will be impaired, time being of the very essence.
Upon any occurrence of default, We may, to the extent permitted by law, cancel
Your rights under this Agreement, require the return of all access devices and
declare the entire balance of every Feature Category of Your Account immediately
due and payable, without prior notice or demand.
COLLECTION COSTS. In the event collection efforts are required to obtain
payment on this Account, to the extent permitted by law, You agree to pay all
court costs, private process server fees, investigation fees or other costs incurred
in collection and reasonable attorneys’ fees incurred in the course of collecting
any amounts owed under this Agreement or in the recovery of any Collateral.

INTEGRATED DOCUMENTS. Any separate sheet of paper labeled "Additional
Disclosure - Federal Truth-In-Lending Act," which is delivered together with this
Agreement or at a later date becomes an integrated part of this Agreement
and Disclosure.
CONSENT TO AGREEMENT. You acknowledge receipt of a copy of this
Agreement. By signing the application; or by using Your Account or any Account
access device; or by authorizing another to use Your Account, You agree to and
accept its terms.
UPDATING AND DISCLOSING FINANCIAL INFORMATION. You will provide
facts to update information contained in Your original Account application or
other financial information related to You, at Our request. You also agree that
We may, from time to time, as We deem necessary, make inquiries pertaining
to Your employment, credit standing and financial responsibility in accordance
with applicable laws and regulations. You further agree that We may give
information about the status and payment history of Your Account to consumer
credit reporting agencies, a prospective employer or insurer, or a state or
federal licensing agency having any apparent legitimate business need for
such information.
TERMINATION. Either You or We may cancel Your Account at any time, whether
or not You are in default. You will, in any case, remain liable to pay any unpaid
balances according to the terms of Your Account.
OWNERSHIP. Your Card remains Our property and may be cancelled by Us at
any time without notice. You agree to surrender Your Card and to discontinue its
use immediately upon Our request.
ISSUANCE OF A PERSONAL IDENTIFICATION NUMBER. We will issue, upon
Your request, a Personal Identification Number (PIN) for use with participating
Automated Teller Machines (ATMs). This PIN is confidential and should not be
disclosed to anyone. You may use Your PIN to access Your Account and all sums
advanced will be added to Your Account balance. In the event a use of Your PIN
constitutes an Electronic Fund Transfer, the terms and conditions of Your
Electronic Fund Transfer Agreement may also affect Your rights.
EFFECT OF AGREEMENT. Even though the sales, cash advance, credit or other
slips You may sign or receive when using Your Card contain terms, this Agreement
is the contract which solely applies to all transactions involving the Card.
UNAUTHORIZED USE. You may be liable for the unauthorized use of Your Card.
You will not be liable for the unauthorized use that occurs after You notify Us of
the loss, theft, or possible unauthorized use by calling Us at (800) 442-4257 or by
writing to Us at P.O. Box 815909, Dallas, TX 75381-5909. In any case, Your
liability will not exceed $50.00.
REFUSAL TO HONOR CARDS OR CONVENIENCE CHECKS. We are not
liable for the refusal or inability of merchants, financial institutions and others to
accept the Cards or Convenience Checks, or electronic terminals to honor the
Cards or complete a Card withdrawal, or for their retention of the Cards or
Convenience Checks.
TRANSACTION SLIPS. Your monthly statement will identify that merchant,
electronic terminal or financial institution at which transactions were made, but
sales, cash advances, credit or other slips cannot be returned with the statement.
LOST CARDS OR CONVENIENCE CHECKS. To report lost or stolen Credit
Cards or Convenience Checks, You will immediately call Us at (800) 442-4257 or
write to Us at P.O. Box 815909, Dallas, TX 75381-5909.

ENFORCEMENT. We do not lose Our rights under this or any related agreement
if We delay enforcing them. We can accept late payments, partial payments or
any other payments, even if they are marked "paid in full" without losing any of
Our rights under this Agreement. If any provision of this or any related agreement
is determined to be unenforceable or invalid, all other provisions remain in full
force and effect.

CREDITS. If a merchant who honors Your Card gives You credit for returns or
adjustments, they will do so by sending Us a slip which will be posted to Your
Account. If Your credits and payments exceed what You owe Us, We will hold and
apply this credit against future purchases and cash advances, or if it is $1.00 or
more refund it on Your written request or automatically deposit it to Your share
account after 6 months.

NOTIFICATION OF ADDRESS CHANGE. You will notify Us promptly if You move
or otherwise have a change of address.

GOVERNING LAW. This Agreement is controlled and governed by the laws of the
State of Texas, except to the extent that such laws are inconsistent with
controlling federal law.

CHANGE IN TERMS. We may change the terms of this Agreement by mailing or
delivering to You written notice of the changes as prescribed by the Federal TruthIn-Lending Act. To the extent permitted by law, the right to change the terms of
this Agreement includes, but is not limited to, the right to change the periodic rate
applicable to Your unpaid balance and/or future advances.
CREDIT INSURANCE. Credit insurance is not required for any extension of credit
under this Agreement. However, You may purchase any credit insurance available
through Us and have the premiums added to Your outstanding balance. If You elect
to do so, You will be given the necessary disclosures and documents separately.
Copyright Oak Tree Business Systems, Inc., 2014. All Rights Reserved.

Your Billing Rights: Keep this Document for Future Use
This notice tells You about Your rights and Our responsibilities under the
Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If You think there is an error on Your statement, write to Us at Our address shown
in this Agreement. In Your letter, give us the following information:

Page 3 of 4

OTBS 016CC ACCE (5/14)

•
•
•

Account information: Your name and Account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If You think there is an error on Your bill, describe
what You believe is wrong and why You believe it is a mistake.

•

If We do not believe there was a mistake: You will have to pay the amount
in question, along with applicable interest and fees. We will send You a
statement of the amount You owe and the date payment is due. We may
then report You as delinquent if You do not pay the amount We think
You owe.

You must contact Us:

•
•

Within 60 days after the error appeared on Your statement.
At least 3 business days before an automated payment is scheduled, if You
want to stop payment on the amount You think is wrong.

You must notify Us of any potential errors in writing. You may call Us, but if You
do We are not required to investigate any potential errors and You may have to
pay the amount in question.

If You receive Our explanation but still believe Your bill is wrong, You must write
to Us within 10 days telling Us that You still refuse to pay. If You do so, We cannot
report You as delinquent without also reporting that You are questioning Your bill.
We must tell You the name of anyone to whom we reported You as delinquent,
and We must let those organizations know when the matter has been settled
between Us. If We do not follow all of the rules above, You do not have to pay the
first $50.00 of the amount You question even if Your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases

What Will Happen After We Receive Your Letter
When We receive Your letter, We must do two things:

1)
2)

Within 30 days of receiving Your letter, We must tell You that We received
Your letter. We will also tell You if We have already corrected the error.
Within 90 days of receiving Your letter, We must either correct the error or
explain to You why We believe the bill is correct.

If You are dissatisfied with the goods or services that You have purchased with
Your Credit Card, and You have tried in good faith to correct the problem with the
merchant, You may have the right not to pay the remaining amount due on the
purchase. To use this right, all of the following must be true:

1)

While We investigate whether or not there has been an error:

•
•
•
•

We cannot try to collect the amount in question, or report You as delinquent
on that amount.
The charge in question may remain on Your statement, and We may
continue to charge You interest on that amount.
While You do not have to pay the amount in question, You are responsible
for the remainder of Your balance.
We can apply any unpaid amount against Your Credit Limit.

After We finish Our investigation, one of two things will happen:

•

If We made a mistake: You will not have to pay the amount in question or
any interest or other fees related to that amount.

Copyright Oak Tree Business Systems, Inc., 2014. All Rights Reserved.

2)
3)

The purchase must have been made in Your home state or within 100 miles
of Your current mailing address, and the purchase price must have been
more than $50.00. (Note: Neither of these are necessary if Your purchase
was based on an advertisement We mailed to You, or if We own the
company that sold You the goods or services.)
You must have used Your Credit Card for the purchase. Purchases made
with cash advances from an ATM or with a check that accesses Your Credit
Card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and You are still dissatisfied with the purchase,
contact Us in writing at Our address shown in this Agreement.
While We investigate, the same rules apply to the disputed amount as
discussed above. After We finish Our investigation, We will tell You Our
decision. At that point, if We think You owe an amount and You do not pay, We
may report You as delinquent.

Page 4 of 4

OTBS 016CC ACCE (5/14)

